o0"6830

INAL

NO.1

IN THE
SUPREME COURT OF THE UNITED STATES
DONALD JONES

PETITIONER
vs.
UNITED STATE COURT OF APPEALS

RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS

PETITION FOR A WRIT OF CERTIORARI

DONALD JONES
P.0. BOX 51584
FORT MYERS, FL. 33994
(678) 360-1505

FILED
JAN 0 h 2021
SUPREM^COJRT1-^

Question Presented
Denying the petitioner a panel of three judges becouse he was to poor to pay the fee's was in
violation of his Fifth and fouteeth amendment right,
a

•T

List OF PARTIES

s

1. United State Court of Appeals
2. United State District Court

TABLE OF CONTENTS
OPINION BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A Decision of United States court appeals
APPENDIX B Decision of United States District Court
APPENDIX C Decision of Chief Judge Denying complaint filed by Donald
Jones
APPENDIX D Decision of Judicial Council Review panel.Denying Complaint
filed by Donald Jones.

JURISDICTION
The United State Court of Appeals for the Eleventh Circuit entered judgment dismissing the case
for the petitioner for failing to pay the docketing fee's. Effective October 15,2020.

Constitution and Statutory Provisions Involved
Fifth and Fourteenth Amendment
The Fifth and fouteeth amendment has an explicit requirement that the goverment not
deprive individuals of "life, liberly. or property”without due process of the law and impict
guarantee that each person receive equal protection of the law.

STATEMENT OF THE CASE
The appellant file a motion to Chief judge Ed Carnes that -that the judges was denied his
appeal becouse he was to poor to pay the fee's there denied his motion for proceed in forma
pauperis there aiso denied him a panel of three judges because he could not pay the fee's one
judge hear the appeal two judges hear the reconsideration. Oonald tones v. Bank of america,
Reverse Mortgagte Solutions INC. Case no. 19-11531-K, Donald Jones v. Lee County
Department of Human and Veteran Services, Case no. 19-10059-F, Donald Jones v. Bank of
america, State of Florida Case NO. 16-17790-E, Donald Jones v. Bank of America, State of
Florida Case no. 20-10548-H. In chef judge ed carnes order judge Steele was involved in three
cases one behind the other refusing to recuse himself over a conflict of interest. Chef judge
Carnes wrote in his order dated august 2018 that the magistrate judge uses the shotgun
pleading see 'Christopher j. weiland v. palm beach co. sherff office et, 792 F. 3d 1313(llth Cir
2015'. The petitioner ask the court for a hearing to present more evidence he was refulse
'becouse the defendants had not yet been served. In chef judge carnes discussion he stated
'the complainant takes issue, he provides no credible facts or evidence in support of his claims
that the subject judge was biased, had a conflict of interest, otherwise engaged in
miscondust. In Chief Judge Ed Carnes FINAL DISCUSSION He wrote the allegation are "directly
related tO the merits of a decision or procedural ruling," JCDR 11(C)(1)(B) and the complaint
"is based on allegation lacking sufficient evidence to raise an inference that misconduct has
occurred or that a disability exists. Over the Protest of the petitioner and a complaint to the
depertment of justice why did the court did not see a conflict of interest three case in a row
all with biased decisions that the petitioner come not write a plain and simple case and he
was to poor to pay the court fee's.

Reason For Granting the Petetion
Appeal court erred in denying a three judge panel to hear his appeal
28 U.S. Code 1253
A district court of three judges shall be convened when otherwise required by Act of congress
or when an action is filed challenging the lower court decision.

CONCLUSION
For the foregoing reason, I respectfully ask that this court to review this case. And granted the
petition for writ of certiorari.
Respecifully submitted,

Date

<l///'l6Zl

